si E-Mail Address: 1115 H Street, NE.
Est. 941

briefs@wilsonepes.com Washington, D.C. 20002
WO TG Web Site: Tel (202) 789-0096
www.wilsonepes.com Fax (202) 842-4896
No, 21-144

SEATTLE’S UNION GOSPEL MISSION, Petitioner,
Vv.

MATTHEW S. WOODS, Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 2, 2021, three (3) copies of the BRIEF FOR THE
GENERAL CONFERENCE OF SEVENTH-DAY ADVENTISTS, WORLD VISION, INC. (U.S.),
AGUDATH ISRAEL OF AMERICA, ASSOCIATION OF CHRISTIAN SCHOOLS
INTERNATIONAL, BELLEVUE CHRISTIAN SCHOOL, CRISTA MINISTRIES, ETHICS AND
RELIGIOUS LIBERTY COMMISSION OF THE SOUTHERN BAPTIST CONVENTION,
INTERVARSITY CHRISTIAN FELLOWSHIP/USA, NORTHWEST DISTRICT COUNCIL OF
THE ASSEMBLIES OF GOD, NORTHWEST UNIVERSITY, UNION OF ORTHODOX JEWISH
CONGREGATIONS OF AMERICA, AND SEATTLE CHRISTIAN SCHOOL AS AMICI CURIAE
IN SUPPORT OF PETITIONERS in the above-captioned case were served, as required by U.S.
Supreme Court Rule 29.5(c), on the following:

JOHN J. BURSCH JENNIFER DENISE DISKIN

ALLIANCE DEFENDING FREEDOM @LAW FOUNDATION OF WASHINGTON
440 First Street, NW, Suite 600 101 Yesler Way #300

Washington, DC 20001 Seattle, WA 98104

Counsel for Petitioner Counsel for Respondent

The following email addresses have also been served electronically:

jbursch@adflegal.org
denise@qlawfoundation.org

emilis@spero.law fl W |

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 2nd day of September 2021.

d

Corin Cas] HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

  
     
